                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: 112070040                                                                    Page 1 of 1



                 In a proactive review of awards under NSF's Louis Stokes Alliances for Minority
         Participation (LSAMP) program, we determined that funds from an award 1 had been used to
         provide scholarships to students other than those specified in the award, contrary to the express
         conditions of the award. Because the evidence did not indicate fraudulent mischarging, we
         referred the matter to NSF management. As a result, NSF recovered $210,320 from the
         awardee. 2

                   Accordingly, this case is closed.




         2




NSF OIG Form 2 (11/02)
